Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  SOME MAINE CHILD DAY CARE
CENTERS DID NOT ALWAYS COMPLY
 WITH STATE HEALTH AND SAFETY
   LICENSING REQUIREMENTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-01-13-02503
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The six providers that we reviewed did not always comply with applicable State licensing
  requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers that received CCDF funding, we audited six licensed child day care
centers (providers) in Maine that received CCDF funding. We conducted this review of the
Maine Department of Health and Human Services (State agency) in conjunction with our review
of 20 family day care homes (report number A-01-13-02507).

The objective of this review was to determine whether the State agency’s monitoring ensured
that providers that received CCDF funds complied with State licensing requirements related to
the health and safety of children.

BACKGROUND

The CCDF (authorized by the Child Care and Development Block Grant Act and the Social
Security Act § 418) assists low-income families, families receiving temporary public assistance,
and families transitioning from public assistance to obtain childcare so that they may work or
obtain training or education. Combined funding for the CCDF program for fiscal year 2012,
including the block grant’s discretionary fund and the CCDF mandatory and matching funds,
was approximately $5.2 billion.

The State agency is the lead agency, which helps low- to moderate-income families in Maine pay
for childcare. Parents may select a childcare provider that satisfies the applicable State and local
requirements, including basic health and safety requirements.

As the lead agency, the State agency must monitor licensed providers. Within the State agency,
the Division of Licensing, Childcare Licensing Unit (State licensing division), is responsible for
issuing child day care center licenses. The State licensing division is also responsible for
monitoring compliance with requirements set by the State agency under direction of the Maine
Legislature. Additionally, the State licensing division is responsible for childcare licensing and
enforcement personnel, who conduct inspections to ensure that providers meet basic health and
safety standards. State requirements indicate that the State licensing division must conduct at
least one unannounced inspection of providers between 6 and 18 months after the issuance of the
license.




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                   i
WHAT WE FOUND

Although the State agency’s licensing division conducted the required inspections at all six of the
providers that we reviewed, this onsite monitoring did not ensure that providers that received
CCDF funds complied with State licensing requirements related to the health and safety of
children. We determined that the six providers did not comply with one or more State licensing
requirements to ensure the health and safety of children. Specifically, we found that all six of the
providers did not always comply with State licensing requirements related to the physical
conditions of child day care centers, five of the providers did not always comply with inspection
procedures or other administrative requirements, and four of the providers did not comply with
requirements to obtain criminal history and child protection reports.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   ensure through more frequent and thorough onsite monitoring that providers comply with
        health and safety requirements,

    •   consider State regulatory changes to ensure unannounced inspections are required to be
        conducted at least annually,

    •   ensure adequate oversight by reducing licensing inspectors’ caseloads, and

    •   ensure that providers obtain criminal history and child protection reports for all
        employees who provide direct services to children.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally concurred with our findings
and explained its plans for addressing our recommendations.




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                               ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Maine Childcare Services ..................................................................................... 2
               Related Office of Inspector General Work........................................................... 2
               Child Care Aware of America .............................................................................. 2
               Administration for Children and Families Proposed Regulations........................ 3

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 4
                State Requirements ............................................................................................... 4
                Providers Did Not Comply With Physical Conditions Requirements ................. 5

         Providers Did Not Always Comply With Inspection Procedures and Other
            Administrative Requirements ..................................................................................... 5
                State Requirements ............................................................................................... 5
                Providers Did Not Comply With Inspection Procedures and Other
                  Administrative Requirements ............................................................................ 6

         Providers Did Not Always Comply With Requirements To Obtain
           Criminal History and Child Protection Reports ............................................................ 6
                State Requirements ............................................................................................... 6
                Providers Did Not Comply With Requirements To Obtain
                  Criminal History and Child Protection Reports ................................................ 6

         Causes of Noncompliance With Health and Safety Requirements .................................. 7

RECOMMENDATIONS ............................................................................................................ 7

STATE AGENCY COMMENTS ............................................................................................... 7

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 8

           B: Federal Regulations and State Licensing Requirements ........................................... 9



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                                                               iii
        C: Photographic Examples of Noncompliance With
            Physical Conditions Requirements ...................................................................... 13

        D: Instances of Noncompliance at Each Child Day Care Center ................................ 16

        E: State Agency Comments ......................................................................................... 17




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                                             iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited six licensed child day care
centers 2 (providers) that received CCDF funding in Maine. We conducted this review of the
Maine Department of Health and Human Services (State agency) in conjunction with our review
of 20 family day care homes (report number A-01-13-02507).

OBJECTIVE

Our objective was to determine whether the State agency’s monitoring ensured that providers
that received CCDF funds complied with State licensing requirements related to the health and
safety of children.

BACKGROUND

Authorized by the Child Care and Development Block Grant (CCDBG) Act (42 U.S.C. 9858 et
seq.) and section 418 of the Social Security Act (42 U.S.C. 618), the CCDF assists low-income
families, families receiving temporary public assistance, and families transitioning from public
assistance to obtain childcare so that they may work or obtain training or education. Combined
funding for the CCDF program for fiscal year 2012, including the block grant’s discretionary
fund and the CCDF mandatory and matching funds, was approximately $5.2 billion.

The CCDBG Act and Federal regulations require the State to maintain a plan that certifies that
the State has requirements in State or local law to protect the health and safety of children, and
the plan must certify that procedures are in effect to ensure that childcare providers comply with
these requirements (42 U.S.C. 9858c(c)(2)(F) and (G) and 45 CFR §§ 98.15(b)(5) and (6)).

Federal regulations (45 CFR 98.10) require States to designate a lead agency to administer the
CCDF program.



1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 12, 2011).
2
 “Child day care center” means a house or other place in which a person maintains or otherwise carries out a regular
program, for consideration, for any part of a day providing care and protection for 13 or more children under 13
years of age, or any location or locations operated as a single childcare program or by a single person or persons
when there are more than 12 children being cared for (Code of Maine Rules 10-148, (State licensing requirements),
chapter 32, § 1.4).



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                               1
Federal regulations at 45 CFR §§ 98.11 (b)(4) and (6) state that in retaining overall responsibility
for the administration of the program, the lead agency must ensure that the program complies
with the approved plan and all Federal requirements and monitors programs and services;

Maine Childcare Services

The State agency is the lead agency, which helps low- to moderate-income families in Maine pay
for childcare. Parents may select a childcare provider that satisfies the applicable State and local
requirements, including basic health and safety requirements.

As the lead agency, the State agency must monitor providers. Within the State agency, the
Division of Licensing, Childcare Licensing Unit (State licensing division), is responsible for
issuing child day care center licenses. The State licensing division is also responsible for
monitoring compliance with requirements set by the State agency under direction of the Maine
Legislature. Additionally, the State licensing division is responsible for childcare licensing and
enforcement personnel, who conduct inspections to ensure that providers meet basic health and
safety standards. State requirements indicate that the State licensing division must conduct at
least one unannounced inspection of providers between 6 and 18 months after the issuance of the
license. (State licensing requirements, chapter 32, § 2.14.2).

Related Office of Inspector General Work

The Office of Inspector General, Office of Evaluation and Inspections (OEI), issued an Early
Alert Memorandum Report on July 11, 2013, to ACF entitled License-Exempt Child Care
Providers in the Child Care and Development Fund Program (OEI-07-10-00231). OEI
concluded that States exempt many types of providers from licensing and that these providers are
still required to adhere to Federal health and safety requirements to be eligible for CCDF
payments.

Child Care Aware of America

Child Care Aware of America (CCAA) (formerly the National Association of Child Care
Resource & Referral Agencies) published a 2013 update, We Can Do Better, that reviewed and
ranked State childcare center regulations and oversight. 3 CCAA stated that effective monitoring
policies are important for child safety and center accountability for compliance with State
licensing requirements. CCAA added that making inspection reports public is an important form
of consumer education because parents cannot make informed selections among childcare
settings unless they have access to compliance information. Otherwise, they assume that a State
license is a seal of approval. CCAA also suggested that with the important role effective
monitoring plays in promoting child safety and program compliance with licensing, the number
of programs that each licensing inspector monitors needs to be reduced, not increased. CCAA
3
  CCAA works with more than 600 State and local childcare resource and referral agencies nationwide. CCAA
leads projects that increase the quality and availability of childcare, offers comprehensive training to childcare
professionals, undertakes research, and advocates childcare policies that positively impact the lives of children and
families.



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                                     2
recommended that States reduce the caseload for licensing inspectors to a ratio of 1:50 (1
inspector for 50 cases).

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 4 The proposed changes include a requirement that State lead agencies perform an
initial onsite monitoring visit and at least one annual unannounced onsite visit of providers that
have received CCDF subsidies. The proposal also requires providers responsible for the health
and safety of children to receive specific and basic training commensurate with their professional
responsibilities. In addition, ACF stated that it strongly encourages lead agencies to establish
requirements for ongoing training.

HOW WE CONDUCTED THIS REVIEW

Of the 313 providers that received CCDF funding from July through September 2012, we
selected 6 providers for our review. We based this selection on the consideration of certain risk
factors, including previous health and safety findings and the number of children being served by
the provider. We conducted our fieldwork in Bangor, Augusta, Lewiston, East Machias,
Bucksport, and Portland, Maine. We conducted unannounced site visits from
February 8 to March 6, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details of
the Federal regulations and State licensing health and safety requirements that pertain to
providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                               FINDINGS

Although the State agency’s licensing division conducted the required inspections at all six of the
providers that we reviewed, this onsite monitoring did not ensure that providers that received
CCDF funds complied with State licensing requirements related to the health and safety of
children. We determined that the six providers did not comply with one or more State licensing
requirements to ensure the health and safety of children. Specifically, we found that all six of the
providers did not always comply with one or more requirements related to the physical
conditions of the child day care centers, five of the providers did not always comply with
inspection procedures or other administrative requirements, and four of the providers did not
comply with requirements to obtain criminal history and child protection reports.

4
    78 Fed. Reg. 29441 (May 20, 2013).


Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                               3
Appendix D displays a table that contains the instances of noncompliance at each provider we
reviewed.

PROVIDERS DID NOT ALWAYS COMPLY WITH PHYSICAL
CONDITIONS REQUIREMENTS

State Requirements

A prospective provider applies for a child day care center license by completing, signing, and
submitting to the State licensing division an application to obtain the license (State licensing
requirements, chapter 32, § 2.6). The application form includes an acknowledgment from the
applicant that the applicant has read the State licensing requirements, agrees to abide by them,
and will allow full and unannounced inspections by the State licensing division’s staff. State
licensing requirements include the following requirements related to the physical conditions of
child day care centers:

     • Formula and breast milk must be labeled with the child’s name, dated, stored in the
       refrigerator, and discarded within 48 hours. Frozen breast milk must be discarded within
       2 weeks (section 22.4.2).

    •    All medications, cleaning supplies, toxic substances, matches, lighters, power tools, and
         items dangerous to children must be stored in such a way as to be inaccessible to
         children, even in rooms that are not used by children (section 18.4.3.5).

    •    The facility must be equipped with at least one easily accessible first-aid kit and a
         current manual of first-aid measures. The type and quantity of supplies is to be
         determined by current guidelines of the American Red Cross or other recognized health
         organization or by the facility’s health consultant (section 18.4.7).

    •    The facility and surrounding premises must show evidence of routine maintenance.
         Repair of wear and tear must be made in a timely fashion (section 18.1.1).

    •    The play area must be free of hazards and inspected by staff daily, prior to children
         having access to the area (section 18.5.8).

    •    All contaminated food must be disposed of promptly. Swelled, rusted, dented, or leaky
         canned food or drink must not be consumed and must be disposed of promptly
         (section 19.2.29).

    •    At least two feet of space must be provided between mats, cots, and cribs when in use
         (section 18.4.5.4).

    •    Bathrooms are not to be used for preparing foods or washing dishes (section 19.2.20).

    •    There must be at least one designated wheeled evacuation crib (section 22.8.12).

Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                  4
Appendix B contains all relevant State licensing requirements.

Providers Did Not Comply With Physical Conditions Requirements

We determined that all six of the providers we reviewed had one or more instances of
noncompliance with the requirements to protect children from potentially hazardous conditions.
Specifically, we found 28 instances of noncompliance with State licensing requirements related
to physical conditions. Examples of noncompliance included:

    •    frozen breast milk not discarded within 2 weeks (Appendix C, photograph 1);

    •    hazardous chemicals (shaving cream and bingo blotters) (Appendix C, photograph 2)
         and dangerous items, such as uncovered electrical outlets, space heaters, and dangling
         wires accessible to children;

    •    expired medications not removed from the first-aid kit and discarded per current
         recognized health organization guidelines (Appendix C, photograph 3);

    •    a lack of routine maintenance at the facility, as indicated by a duct-taped heater and a
         wall with chipped paint (Appendix C, photograph 4), water stains on the ceiling, a
         broken gate for an outdoor play area that was held closed by a line of string
         (Appendix C, photograph 5), and outdoor play equipment in disrepair;

    •    a broken and rusted chair on the playground accessible to children (Appendix C,
         photograph 6);

    •    expired condiments in the refrigerator;

    •    less than two feet of space between mats that were in use during nap time;

    •    a bathroom sink that was used to wash dishes; and

    •    a designated wheeled evacuation crib that was filled with toys.

PROVIDERS DID NOT ALWAYS COMPLY WITH INSPECTION PROCEDURES AND
OTHER ADMINISTRATIVE REQUIREMENTS

State Requirements

Providers must comply with State licensing requirements related to inspection procedures and
other administrative requirements, including the following:

    •   Childcare facilities must have an annual screening for potential lead hazards
        (section 18.2.4).



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                 5
    •   The facility must submit, prior to initial operation and annually thereafter, a written
        satisfactory water analysis report completed by the Maine Department of Health and
        Human Services, Maine Center for Disease Control and Prevention, Division of
        Environmental Health, or other approved laboratory, if the facility’s water is from any
        source other than an approved public water supply (section 18.2.3).

    •   Fire evacuation drills using at least two means of exit must be conducted at least once a
        month for all children and adults present (section 18.6.1).

    •   The facility must adopt a written policy for handling suspected instances of child abuse or
        neglect in accordance with Maine law (section 21.2).

Providers Did Not Comply With Inspection Procedures and Other Administrative
Requirements

We determined that five of the six providers either did not always follow inspection procedures
or perform other administrative requirements. Specifically, we found nine instances of
noncompliance with State licensing requirements related to inspection procedures and other
administrative requirements. Examples of noncompliance included:

    •   no annual screening for potential lead hazards,

    •   no written satisfactory water analysis report submitted,

    •   no record of monthly fire drills available for inspection, and

    •   no written policy for handling suspected instances of child abuse or neglect.

PROVIDERS DID NOT ALWAYS COMPLY WITH REQUIREMENTS TO OBTAIN
CRIMINAL HISTORY AND CHILD PROTECTION REPORTS

State Requirements

In Maine, providers must obtain State criminal history reports and child protection reports for
each license applicant and for each paid, unpaid, temporary, or regular staff member, director, or
volunteer in a childcare facility (State licensing requirements, chapter 32, § 2.21).

Providers Did Not Comply With Requirements To Obtain Criminal History and
Child Protection Reports

We determined that 11 employees at 4 providers lacked some or all of the required criminal
history and child protection reports. Specifically, we found that:

    •   11 employees did not have the required State criminal history report and

    •   7 of those employees also lacked a State child protection report.

Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                 6
CAUSES OF NONCOMPLIANCE WITH HEALTH AND SAFETY REQUIREMENTS

State regulations require the State licensing division to conduct unannounced inspections of
providers between 6 and 18 months after licensing. This can result in some providers, including
new providers, not having an unannounced inspection conducted by the State licensing division
for more than 1 year. CCAA recommended that States require inspections of childcare centers
before licensing (before children are admitted into care) at least quarterly and when there is a
complaint. Additionally, the State licensing division’s average ratio of licensing inspectors to
programs is 1:179. CCAA recommended that States reduce the caseload for licensing inspectors
to a ratio of 1:50. Reducing the licensing inspectors’ caseload would enable the State licensing
division to ensure more frequent and thorough onsite monitoring of childcare providers.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   ensure through more frequent and thorough onsite monitoring that providers comply with
        health and safety requirements,

    •   consider State regulatory changes to ensure unannounced inspections are required to be
        conducted at least annually,

    •   ensure adequate oversight by reducing licensing inspectors’ caseloads, and

    •   ensure that providers obtain criminal history and child protection reports for all
        employees who provide direct services to children.


                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally concurred with our findings
and explained its plans for addressing our recommendations. The State agency’s comments are
included in their entirety as Appendix E.




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                               7
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Of the 313 providers that received CCDF funding from July through September 2012, we
selected 6 providers for our review. We based this selection on the consideration of certain risk
factors, including the State agency’s input on identifying high-risk providers.

We conducted a review of the providers’ records and facilities as of March 2013. To gain an
understanding of the State agency’s operations regarding childcare providers, we limited our
review to the State agency’s internal controls as they related to our objective.

We conducted fieldwork at six providers. The selected providers were located in Bangor,
Augusta, Lewiston, East Machias, Bucksport, and Portland, Maine. We conducted these
unannounced site visits from February 8 to March 6, 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, State statutes, and requirements for licensing
        providers, and the most recent Maine CCDF State plan approved by ACF;

    •   interviewed the CCDF program manager to determine how Maine monitored its
        providers;

    •   obtained a letter from the State agency to give to the providers in our review that
        explained our audit;

    •   developed a health and safety checklist as a guide for conducting site visits;

    •   conducted unannounced site visits at six providers we selected for review;

    •   interviewed providers to obtain a listing of center employees whose salaries were funded
        by CCDF (and who had direct access to children) to determine whether all required
        criminal history records checks were conducted; and

    •   discussed the results of our review with each of the providers, State licensing officials,
        and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                  8
                        APPENDIX B: FEDERAL REGULATIONS AND
                           STATE LICENSING REQUIREMENTS

FEDERAL REGULATIONS

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR § 98.1(a)(5)).

In retaining overall responsibility for the administration of the program, the lead agency must
ensure that the program complies with the approved plan and all Federal requirements; and
monitor programs and services; (45 CFR §§ 98.11 (b)(4) and (6)).
The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State or local (or tribal) law requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR § 98.15(b)(5)).

STATE LICENSING REQUIREMENTS

The CCDF plan for Maine requires the State licensing division to conduct inspections to ensure
that providers meet basic health and safety requirements. The State licensing division is
responsible for licensing of childcare centers.

General Statutes of Maine

Maine Revised Statutes, Title 22, § 7706 – Criminal Background Checks

Beginning October 2010, a facility or health care provider subject to the licensing or certification
processes of chapter 1663, a nursery school subject to chapter 1675, or a hospice provider
subject to chapter 1681 must obtain, prior to hiring an individual who will work in direct contact
with a consumer, criminal history record information on that individual, including, at a
minimum, criminal history record information from the Department of Public Safety, State
Bureau of Identification. The entity seeking to employ the individual must pay for the criminal
background check required by this section.

State Licensing Requirements

Code of Maine Rules, 10-148, Chapter 32

The following requirements are applicable to this review’s identification of instances of
noncompliance:

Section 1.5 – Childcare Facilities

A childcare facility is a house or other place in which a person maintains or otherwise carries out
a regular program, for consideration, for any part of a day providing care and protection for three


Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                   9
or more children under 13 years of age. Any program for children under 5 years of age that is
located in a private school and programs that contract with one or more child development
services system sites are required to be licensed as a childcare facility.

Childcare facilities include “childcare centers.”

Section 1.4 – Childcare Center

A childcare center is:

    (1) a house or other place in which a person maintains or otherwise carries out a regular
        program, for consideration, for any part of a day providing care and protection for 13 or
        more children under 13 years of age; or

    (2) any location or locations operated as a single childcare program or by a single person or
        persons when there are more than 12 children being cared for.

Within the State licensing requirements, we used the following sections to identify the instances
of noncompliance:

Section 22.4.2 – Feeding

Formula and breast milk must be labeled with the child’s name, dated, stored in the refrigerator,
and discarded within 48 hours. Frozen breast milk must be discarded within 2 weeks.

Section 19.2.29 – Disposing Contaminated Food

All contaminated food must be disposed of promptly. Swelled, rusted, dented, or leaky canned
food or drink must not be consumed and must be disposed of promptly.

Section 18.4.3.5 – General Safety

All medications, cleaning supplies, toxic substances, matches, lighters, power tools, and items
dangerous to children must be stored in such a way as to be inaccessible to children, even in
rooms that are not used by children.

Section 18.4.7 – First Aid

The facility must be equipped with at least one easily accessible first-aid kit and a current manual
of first-aid measures. The type and quantity of supplies is to be determined by current guidelines
of the American Red Cross or other recognized health organization or by the facility’s health
consultant.

Sections 18.1.1 and 18.1.2 – General Condition of the Facility and Surrounding Premises

    (1) The facility and surrounding premises must show evidence of routine maintenance.
        Repair of wear and tear must be made in a timely fashion.

Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                 10
    (2) The facility must take immediate steps to correct any condition in the physical facility or
        on the premises, which poses a danger to children’s life, health, or safety.

Sections 18.5.2 and 18.5.8 – Outdoor Play Area

    (1) Where hazardous conditions exist in the outdoor play area, the children must be protected
        from those conditions by fencing or other appropriate barriers.

    (2) The play area must be free of hazards and inspected by staff daily, prior to children
        having access to the area.

Section 18.4.5.4 – Furnishings

At least two feet of space must be provided between mats, cots, and cribs when in use.

Section 19.2.20 – Sinks

Proper sinks with approved plumbing and hot and cold water under pressure must be available in
all rooms where food or drink is prepared or utensils are washed. Bathrooms are not to be used
for preparing foods or washing dishes.

Section 22.8.12 – Cots, Cribs, and Bedding

There must be at least one designated wheeled evacuation crib.

Section 18.2.4 – Satisfactory Lead Levels

Childcare facilities must have an annual screening for potential lead hazards. A facility may be
exempt from this screening if:

    (1) the facility was constructed in 1978 or later,

    (2) the facility has been certified as lead-safe within the previous 12 months,

    (3) the facility has been certified as lead-free, or

    (4) the facility does not serve any children under 6 years of age.

Section 18.2.3 – Satisfactory Water

The facility must, prior to initial operation and annually thereafter, submit a written satisfactory
water analysis report completed by the Maine Department of Health and Human Services, Maine
Center for Disease Control and Prevention, Division of Environmental Health, or other approved
laboratory, if the facility’s water is from any source other than an approved public water supply.

Section 18.6 – Fire Evacuation Drills

Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                               11
    (1) Fire evacuation drills must be conducted at least once a month for all children and adults
        present using at least two means of exit.

    (2) Fire drills must be conducted according to policies and procedures that are posted in each
        room utilized by children.

    (3) A record of drills must be available for inspection by the Department of Health and
        Human Services, the Department of Public Safety, State fire marshal’s office, and local
        fire inspectors.

Section 21.2 – Policy for Handling Suspected Instances of Child Abuse or Neglect

The facility must adopt written policy for handling suspected instances of child abuse or neglect
in accordance with Maine law.

Section 2.21 – Criminal History and Child Protection Reports

Criminal history reports, out of home abuse investigation reports, and child protection reports
must be obtained for each individual applicant for a license and for each paid, unpaid, temporary,
or regular staff member, director, or volunteer, in a childcare facility as required by section 11.
Criminal history reports, out of home abuse investigation reports, and child protection reports
must also be obtained for governing body members, trustees, partners, corporate officers,
owners, or operators who serve in a child caring capacity at the facility.

Section 2.14.2 – Unannounced Inspections

The department must make at least one unannounced inspection of the childcare facility licensed
under Maine Revised Statutes, title 22, chapter 1673, § 8301-A, subsection 2, during the term of
the license. The inspection must take place between 6 and 18 months after the issuance of the
license.




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                               12
      APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                   PHYSICAL CONDITIONS REQUIREMENTS




                Photograph 1: Expired frozen breast milk dated February 23, 2012,
                which was almost 1 year old at the time of our visit, February 8, 2013.




                 Photograph 2: Potentially hazardous chemicals (shaving cream
                 and bingo blotters) labeled “Keep Out of the Reach of Children”
                 on a shelf within reach of children.



Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                       13
           Photograph 3: Expired Benadryl dated January 1999 found inside the
           first-aid kit.




           Photograph 4: Wall heating unit not in good repair held together by duct tape,
           with chipped paint on the walls and unit.


Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                         14
         Photograph 5: A broken gate for an outdoor playground held closed by a line of
         string and ribbon.




          Photograph 6: Rusted and broken chair discarded in an outdoor playground.

Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                       15
                APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH
                             CHILD DAY CARE CENTER

                                                                               Criminal
                                                Annual                        History and
                                             Screenings and                      Child
                        Date of  Potentially     Other                        Protection
                         Last    Hazardous Administrative                       Report
        Center #      Inspection Conditions Responsibilities                    Checks             Total
          1a           11/29/12       4            2                                0                6
          1b            8/28/12       6            1                                0                7
          1c            9/17/12       4            1                                0                5
           2            4/17/12       4            0                                3                7
           3            11/5/12       1            1                                3                5
           4            6/20/11       5            1                                2                8
           5            11/6/12       3            1                                3                7
           6            11/6/12       1            2                                0                3
         Total                       28            9                               11               48

      Notice: We provided to the State agency under a separate cover the specific names of the providers we audited.
      Center #1 had three locations, which we have labeled as 1a, 1b, and 1c in the table above.




Some Maine Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02503)                                                16
                                    APPENDIX E: STATE AGENCY COMMENTS
                                                                               Department of Health and Human Services
                                                                                                    Commissioner's Office
                                                                                                            221 State Street
                                                                                                    11 State House Station
                                                                                               Augusta, Maine 04333-0011
                                                                                   Tel.: (207) 287-3707; Fax (207) 287-3005
Paul R. LePage, Governor    Mary C. Mayhew, Commissioner                               TTY Users: Dial711 (Maine Relay)



                                                           June 16, 2014



        Mr. David Lamir, Regional Inspector General for Audit Services
        Office of Audit Services, Region I
        JFK Federal Building
        15 New Sudbury Street, Room 2425
        Boston, MA 02203

                               Re: Some Maine Child Day Care Centers Did Not Always Comply
                                    With State Health and Safety Licensing Requirements-
                                               Report Number A-01-13-02503.

        Dear Mr. Lamir:

                The Department of Health and Human Services (DHHS) appreciates the opportunity to
        respond to the above mentioned draft audit report. We offer the following comments in relation
        to the recommendations on Page 7 of this report.

                For your convenience, below we include the summary finding and list each
        recommendation followed by our response. Each response includes the State's proposed
        corrective action plan which we believe will bring the State into compliance with Federal
        requirements.

                   Finding:
                   Although the State licensing agency conducted the required inspections at all six of the
                   providers that we reviewed, this onsite monitoring did not ensure that providers that
                   received CCDF funds complied with State licensing requirements related to the health
                   and safety of children. We determined that the six providers did not comply with one or
                   more State licensing requirements to ensure the health and safety of children.
                   Specifically, we found that all six of the providers did not always comply with State
                   licensing requirements related to the physical conditions of child day care centers, five of
                   the providers did not always comply with inspection procedures or other administrative
                   requirements, and four of the providers did not comply with requirements to obtain
                   criminal history and child protection reports.

                   Recommendation:
                   Ensure through more frequent and thorough onsite monitoring that providers comply with
                   health and safety requirements.




       Some Maine Child Day Care Centers Did Not Always Comply                                                 17
       With State Health and Safety Licensing Requirements (A-01-13-02503)
Page Two

        Response: The State of Maine concurs and is currently working with the Federal Office
        of Child Care to implement a differential monitoring survey process that more
        comprehensively addresses the foregoing recommendation. Differential monitoring is
        intended to guide the efficient use of resources by determining the frequency and scope
        of survey activity based on a historical trending assessment of the provider's level of
        compliance with regulations. Additionally, Maine has increased licensing surveyor
        personnel by sixteen (16) positions that will decrease surveyor caseloads from an average
        of 180 licensees to 80.

        Recommendation:
        Consider State regulatory changes to ensure unannounced inspections are required to be
        conducted at least annually.

        Response: The State of Maine conducts unannounced inspections at least annually.
        Regulations require licensing inspections at least every two years. The practice is to
        conduct a full inspection every two years, and a mid-cycle (in the off year) unannounced
        visit for a limited review. With implementation of the differential monitoring and
        decreased caseloads, Maine intends to conduct annual licensing inspections, and then,
        depending on the differential score, will also conduct mid-cycle reviews that either
        constitute another full survey (for poor- marginal performers), and/or targeted visits
        focusing on specific quality measures that have been identified through state, region, and
        federal sources.

        Recommendation:
        Ensure adequate oversight by reducing licensing inspectors' caseloads.

        Response: Effective May 19, 2014, Maine has implemented a staffing pattern that
        decreases caseloads from an average to 180 to the federally recommended caseload of 80
        per licensing surveyor.

        Recommendation:
        Ensure that providers obtain criminal history and child protection reports for all
        employees who provide direct services to children.

        Response: Maine concurs. It has always been the objective of licensing personnel to
        ensure effective management of criminal history and child protective reports.

       In addition to the foregoing responses, the Maine Department of Health and Human
Services wishes to represent additional changes that have occurred since the time of this audit.

        The Department is developing a publically facing web portal for use by parents and
guardians to research licensed child care providers. The portal will provide information
regarding a provider's licensure status and a history of any licensing actions, including access to
statements of deficiencies and plans of correction related to each licensing action. It is
anticipated that the portal will be available by the end of2014.




Some Maine Child Day Care Centers Did Not Always Comply                                            18
With State Health and Safety Licensing Requirements (A-01-13-02503)
Page Three

       Deficient practices by licensed providers are now reviewed by a child care licensing
advisory panel to determine the scope of relevant licensing action. The panel will advise the
recommended action, if any, including license revocation when appropriate. The panel will
include relevant licensing personnel, investigators, Division management, as well as
representation from the Office of the Attorney General as needed.

        In an effort to keep parents and guardians aware of deficient practices, conditional
licenses are required to be posted in plain sight at the child care location for all parents to view.
Conditional licenses are followed-up by licensing personnel within thirty (30) days to confirm
implementation of an effective plan of correction. Subsequent unannounced visits occur as
warranted by the facts leading to conditional licensure.

        The State of Maine aims to focus efforts on reducing the number of unlicensed child care
providers. In Maine, a license is required when providing childcare for more than two children.
The Division is aware of unlicensed practice, and is evaluating an educational program for
unlicensed child care providers that will offer an amnesty period to take the steps necessary to
become licensed without fear of reprisal. The effort will also educate parents on the process for
reporting child care providers who fail to take advantage of the amnesty period to become
compliant with licensure requirements.

        We appreciate the time spent in Maine by OIG's staff reviewing Maine's child day care
centers. We believe this effort will enable us to perform this function more accurately in the
future.




MCM/klv




Some Maine Child Day Care Centers Did Not Always Comply                                             19
With State Health and Safety Licensing Requirements (A-01-13-02503)
